     Department of Homeland Security

     ��������������������������



Brevard County, Florida, Properly Accounted For and 

  Expended FEMA Public Assistance Grant Funds 

        Received Under Tropical Storm Fay





OIG-14-13-D                            December 2013

                                   OFFJCF: OF INSPECTOR (;ENERAL
                                        Deparhnenl of Homeland Security
                                         Wa~hington,   DC 20528 : ,,.,\·W.Liig.dhs.gL'\'
                                             DEC l 1 2013
MEMORANDUM FOR:                         Major P. (Phil) May
                                        Regional Administrator, Region IV
                                     0~er~~g~ment Agency
FROM:                            /.£h   John V. Kelly
                               r      - Assistant Inspector General
                                        Office of Emergency Management Oversight

SUBJECT:                                Brevard County, Florida, Properly Accounted For ond
                                        Expended FEMA Public Assistance Grant Funds Received
                                        Under Tropical Storm Fay
                                        FEMA Disaster Number 178S-DR-Fl
                                        Audit Report Number OIG-14-13-D

We audited Public Assistance funds awarded to Brevard County, Florida (County)
(FIPS Code 009-99009-00). Our audit objective was to determine whether the County
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The County received a Public Assistance award totaling $9.7 million from the Florida
Division of Emergency Management (FDEM), a FEMA grantee, for damages resulting
from Tropical Storm Fay, which occurred in August 2008. The award provided
75 percent FEMA funding for debris removal, emergency protective measures, and
permanent repairs to buildings and other facilities. The award consisted of 12 large
                                1
projects and 75 small projects.

We audited four large projects with awards totaling $1.5 million (see Exhibit, Schedule
of Projects Audited and Questioned Costs) for debris removal and emergency protective
measures. The audit covered the period from August 18, 2008, to May 22, 2013, during
which the County claimed $1.5 million of costs under the projects we reviewed. At the
time of our audit, the County had completed work on three projects included in our
scope and had submitted final claims to FDEM for expenditures under those projects.

We conducted this performance audit between January and July 2013 pursuant to the
Inspector Generol Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan· and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our

1
    Federal regulations in <?ffect at the tim(' of the disaster set the large project threshold at $50,900.
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed County and FEMA personnel; reviewed the County’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary to accomplish our audit objective.
We did not assess the adequacy of the County’s internal controls applicable to its grant
activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the County’s method of accounting for disaster-related
costs and its policies and procedures for administering activities provided for under the
FEMA award.

                                          RESULTS OF AUDIT

For the projects we reviewed, the County generally accounted for FEMA grant funds
according to Federal regulations and FEMA guidelines. However, the County claimed
$43,631 of ineligible costs for straight-time force account labor.2

The County claimed $43,631 under Project 631 for straight-time labor costs of solid
waste department employees performing debris removal activities. The County elected
to participate in the Public Assistance Pilot Program under several, but not all, projects
for various departments.3 Under the pilot program, FEMA will pay the County for
straight- or regular-time salaries and benefits of permanently employed personnel
engaged in debris removal activities. Typically, FEMA does not pay for straight- or
regular-time salaries and benefits of permanent employees engaged in emergency work
(debris removal and emergency protective measures) (44 CFR 206.228). However, the
County did not include its solid waste department in the pilot program. Consequently,
the County should not have charged the FEMA project for the $43,631 of straight-time
labor it incurred for solid waste department personnel who performed debris removal
activities under the project. Therefore, we question the $43,631.




2
    Force account refers to the County’s personnel and equipment.

3
    FEMA implemented the Public Assistance Pilot Program from June 1, 2007, through December 31, 2008. 


www.oig.dhs.gov                                                                                    OIG-14-13-D
                                                    2

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                  RECOMMENDATION

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $43,631 (Federal share $32,732) of ineligible straight-
time labor costs the County claimed under Project 631.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County, FDEM, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on July 31, 2013. County officials disagreed with the audit
finding.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include contact information for responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive and evaluate your response, we will consider the recommendation
open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributions to this report are David Kimble, Director; Adrianne Bryant, Audit
Manager; Oscar Andino, Auditor-in-charge; Nadine Ramjohn, Senior Auditor; and
Calbert Flowers, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                                                                      OIG-14-13-D
                                           3

                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                                                                                              Exhibit

                      Schedule of Projects Audited and Questioned Costs

                                      FEMA
Project                              Category   Amount             Amount      Federal
Number         Project Scope         of Work    Awarded           Questioned    Share        Finding
          Emergency Protective
 1745     Measures                      B           $    94,748      $     0   $         0
          Emergency Protective
 1581     Measures                      B                74,539           0              0
          Emergency Protective
 1101     Measures                      B               489,000           0              0
 631      Debris Removal                A           870,006           43,631    32,723         A
TOTAL                                            $1,528,293          $43,631   $32,723




  www.oig.dhs.gov                                                                                  OIG-14-13-D
                                                4
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

                                                                           Appendix


                                 Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-012)

State
Executive Director, Florida Division of Emergency Management
State Auditor, Florida

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Sub grantee
Audit Liaison, Brevard County

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                                                                 OIG-14-13-D
                                          5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
